No. 20-273

In the
Supreme Court of the United States
COMCAST CABLE COMMUNICATIONS, LLC,
Petitioner,
v.
ROVI GUIDES, INC.
AND UNITED STATES OF AMERICA,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
REPLY BRIEF FOR THE PETITIONER
DONALD B. VERRILLI, JR.
Counsel of Record
GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Ave. NW,
Suite 500E
Washington, DC 20001-5369
(202) 220-1100
donald.verrilli@mto.com

Counsel for Petitioner

i
TABLE OF CONTENTS
Page
ARGUMENT ................................................................1
CONCLUSION ............................................................6

ii
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
Carr v. Comm’r,
961 F.3d 1267 (10th Cir. 2020) .............................. 4
Customedia Techs., LLC v. Dish
Network Corp.,
941 F.3d 1174 (Fed. Cir. 2019)............................... 3
Davis v. Saul,
963 F.3d 790 (8th Cir. 2020) .............................. 3, 4
Freytag v. Comm’r,
501 U.S. 868 (1991) ................................................ 3
Lucia v. SEC,
138 S. Ct. 2044 (2018) ........................................ 2, 4
Ryder v. United States,
515 U.S. 177 (1995) ............................................ 2, 5

1
ARGUMENT
1. Respondent Rovi Guides Inc. agrees (Resp. 3)
that this petition should be held pending the Court’s
disposition of the Arthrex cases (Nos. 19-1434, 191452, and 19-1458). On October 13, 2020, this Court
granted certiorari in all three Arthrex cases, limited to
the questions (1) whether the administrative patent
judges of the Patent Trial and Appeal Board (PTAB)
were appointed in conformance with the Appointments
Clause; and (2) whether the Federal Circuit’s remedy
properly cured any Appointments Clause defect. Orders List (Oct. 13, 2020). The first question presented
in Arthrex is also the first question presented in this
petition. Because the Court’s resolution of that question in Arthrex will affect the proper disposition of this
case, this Court should hold this petition pending its
decision in Arthrex. If the Court holds that the administrative patent judges were properly appointed, then
the Court should dispose of this case by granting certiorari, vacating the Federal Circuit’s order remanding
this case to the PTAB for a new hearing, and remanding to the Federal Circuit to permit Rovi’s appeal to
proceed.
2. This case presents an additional question:
whether the court of appeals erred in excusing Rovi’s
forfeiture and remanding for a new trial before the
PTAB. As the petition explained, Rovi forfeited its Appointments Clause challenge by failing to raise it before the PTAB. The Federal Circuit nonetheless vacated the PTAB’s final determinations in light of the
court’s holding in Arthrex, pursuant to a categorical
rule that any patent owner that raised an Appointments Clause challenge for the first time on appeal
was entitled to vacatur and remand regardless of the
circumstances of the case. Pet. 9.

2
In Arthrex itself, this Court did not grant certiorari
with respect to the question whether the Federal Circuit erred in excusing Arthrex’s own forfeiture of its
Appointments Clause challenge. The Court’s decision
in Arthrex may nonetheless shed light on the effect of
a patent holder’s forfeiture on its entitlement to any
remedy that the Court announces in Arthrex. In Arthrex, Smith & Nephew argues that even if this Court
holds that the administrative patent judges were invalidly appointed, Arthrex is not entitled to the remedy of a new hearing because “a party who does not
raise a ‘timely challenge’” to an adjudicator’s appointment should receive only declaratory relief. 19-1452
Pet. 32-33 (citing Lucia v. SEC, 138 S. Ct. 2044, 2055
(2018), and Ryder v. United States, 515 U.S. 177, 183
(1995)). If the Court accepts that argument, its denial
of a new hearing to Arthrex would establish that patent owners like Rovi, who similarly failed to raise
their Appointments Clause challenge before the
PTAB, also would not be entitled to a new hearing. In
that event, the Court should grant certiorari in this
case, vacate the Federal Circuit’s remand order, and
remand for further proceedings before the Federal Circuit.
3. In addition, even if this Court holds that Arthrex itself should receive a new hearing, the Court
may conclude that parties raising forfeited follow-on
challenges are not automatically entitled to the same
relief. The Court could reach that conclusion whether
it views entitlement to a new hearing as a forfeiture
issue or a remedial issue.
a. From a forfeiture standpoint, the Federal Circuit’s refusal to enforce forfeiture rules in this case
rests on a distinct error that goes beyond the Federal
Circuit’s excusal of forfeiture in Arthrex itself. After

3
the Federal Circuit decided Arthrex, it adopted a categorical rule that all patentholders who subsequently
raised an Appointments Clause challenge for the first
time on appeal would be entitled to new hearings.
Customedia Techs., LLC v. Dish Network Corp., 941
F.3d 1174, 1175 (Fed. Cir. 2019). That across-theboard approach to excusing forfeiture is irreconcilable
with basic forfeiture doctrine. This Court has emphasized that a court should exercise its discretion to excuse forfeiture only in exceptional cases. See Freytag
v. Comm’r, 501 U.S. 868, 879 (1991); id. at 894 (Scalia,
J.) (“appellate courts may, in truly exceptional circumstances, exercise discretion to hear forfeited claims”).
A court cannot conclude that a case is sufficiently exceptional to warrant excusing forfeiture without conducting a case-specific analysis of the equities. Yet the
Federal Circuit improperly refused to engage in that
analysis. Contrary to Rovi’s argument (Resp. 9), then,
the question presented here is not whether the court
of appeals abused its discretion in excusing forfeiture
on the facts of this case. The Federal Circuit’s error
was that it declined to undertake any discretionary
forfeiture analysis, thereby disregarding the principle
that forfeiture should be excused only in rare cases.
This Court therefore may wish to reaffirm that
principle by instructing the Federal Circuit to undertake the forfeiture analysis on a case-specific basis.
That is the manner in which other courts of appeals
have proceeded in the wake of this Court’s separationof-powers decisions. 1 See, e.g., Davis v. Saul, 963 F.3d

Rovi’s assertion (Resp. 10-11) that the Federal Circuit’s decision in Arthrex represents an intervening change in law that
excuses Rovi’s forfeiture is meritless. Arthrex did not abrogate
1

4
790, 792-793 (8th Cir. 2020) (enforcing forfeiture of
claim that Social Security administrative law judges
were unconstitutionally appointed in light of Lucia v.
SEC, 138 S. Ct. 2044 (2018), because case was not exceptional); Carr v. Comm’r, 961 F.3d 1267, 1273 (10th
Cir. 2020) (same). 2
b. Considering the failure to timely raise the Appointments Clause issue from a remedial perspective,
the Court also may conclude that parties in Rovi’s position are not entitled to a new hearing. Even if this
Court holds that discretionary remedial considerations justify granting Arthrex a new hearing notwithstanding its failure to timely raise its challenge, those
considerations likely would not warrant granting the
same relief to Rovi. For instance, while granting a new
trial to Arthrex might be justified by the need to avoid
creating a “disincentive” to raising Appointments

any binding precedent that would have foreclosed the Appointments Clause claim. And other challengers properly raised the
Appointments Clause claim before the PTAB. 19-1434 Pet. 34.
There is no justification for excusing Rovi’s forfeiture here.
Even assuming that the Federal Circuit’s excusal of Arthrex’s forfeiture was warranted to ensure that the court had a vehicle to
consider the constitutionality of the administrative patent judges’
appointments, that rationale does not apply to parties that, like
Rovi, merely seek to raise forfeited me-too challenges. In addition, Rovi has identified no prejudice arising from the judges’ allegedly unconstitutional appointments. Indeed, in these cases,
the PTAB relied on three independently sufficient combinations
of prior art in finding the patents invalid. See Nos. 19-1215, 1216, -1218, -1293, -1294, -1295 (Fed. Cir.). In view of the amount
of prior art on which the PTAB relied and the exhaustiveness of
its factual findings, it is highly likely that the decisions would
have been affirmed on appeal—and unlikely that the remand will
produce a different result.
2

5
Clause challenges, Ryder, 515 U.S. at 183, that rationale would not apply to follow-on challengers like
Rovi.
Moreover, leaving in place the Federal Circuit’s
categorical vacatur of over one hundred PTAB decisions holding patents invalid will have significant adverse consequences for litigants and the patent system
as a whole. Scores of patents that have been found unpatentable in reasoned decisions by the PTAB will be
permitted to remain in force until newly constituted
PTAB panels can re-examine each case. That is true
even where (as here) the patentee has never contended
that the alleged Appointments Clause violation had
any bearing on the PTAB’s invalidity analysis, and
even where (as here) there is no reasonable likelihood
of a different result on remand. That substantial burden on the patent system is a weighty reason not to
grant new hearings to numerous follow-on challengers
who failed to timely raise their Appointments Clause
challenges.
In sum, even if the Court holds that PTAB judges’
appointments violate the Appointments Clause and
that Arthrex itself is entitled to new hearing, the
proper disposition of this petition is to grant certiorari,
vacate the Federal Circuit’s order remanding this case
to the PTAB for new hearing, and remand to the Federal Circuit with appropriate instructions.

6
CONCLUSION
The petition for a writ of certiorari should be held
pending this Court’s decision in Arthrex (Nos. 19-1434,
19-1452, and 19-1458), and then disposed of as appropriate in light of the Court’s decision in that case.
Respectfully submitted,
DONALD B. VERRILLI, JR.
Counsel of Record
GINGER D. ANDERS
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Ave. NW,
Suite 500E
Washington, DC 20001-5369
(202) 220-1100
donald.verrilli@mto.com

OCTOBER 20, 2020

